\

fj

CERTIFICATE OF SERVICE
I hereby certify that on March 18, 2020 I caused to
be deposited the foregoing with the U.S. Postal Service
properly addressed and prepaid postage to the Clerk of
the Court for the Supreme Court, using the ECF system
will send notification and a copy of such filing to all
parties of record?

^DAVLD JOHNSON
David Johnson
901 East 56th Street, Unit 1C
Brooklyn, NY 11234
332-877-3361
Additional copies to:
Prashant Kolluri
U.S. Attorney for the
Northern District of Illinois
219 South Dearborn Street
Chicago, Illinois 60604
i

25

